GR-80-98-015
 U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Port Isabel Police Department
Port Isabel, Texas
 GR-80-98-015
May 5, 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Port Isabel, Texas. Port Isabel received a
$50,409 grant to hire one police officer under the Funding Accelerated for Smaller Towns
(FAST) program. The purpose of the additional officer was to enhance community policing
efforts.
Due to the City of Port Isabel's failure to meet the terms and conditions of the grant,
we are questioning the funds received which total $30,873. Specifically, a community
oriented policing program was not implemented and grant funds were used to supplant local
funds that would have been available in the absence of Federal funds. Port Isabel should
implement a community oriented policing program and correct the supplanting issue within
90 days. If corrective actions are not achieved within that time, future payments should
be withheld. Should the deficiencies remain uncorrected, deobligate the withheld funds.
Also, the grant award was overstated by $4,356, and those funds should be deobligated.
The City of Port Isabel did not properly manage the COPS FAST grant. We found the
following weaknesses with regard to meeting grant conditions:


- A community oriented policing program was not implemented.
- Budgeted police officer positions had not increased since FY 1994, the baseline for
    funding.
- The grant award was overstated by $4,356.
- The Department Initial Report and the Department Annual Report were not submitted to
    COPS.
- Six of ten Financial Status Reports were submitted late to the Office of Justice
    Programs (OJP).


 
#####